HHS/OIG-Audit--"Sutter Oaks-Arden and Sutter Oaks-Carmichael, skilled
Nursing Facility Billings and Costs for Ancillary Medical Supply, (A-09-98-00073)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Sutter Oaks-Arden and Sutter Oaks-Carmichael, Skilled Nursing Facility
Billings and Costs for Ancillary Medical Supply for the Period January 1, 1994
Through December 31, 1995," (A-09-98-00073)
March 24, 1998
Complete Text of Report is available in PDF format
(171 KB). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
We determined that Sutter misclassified costs on its Medicare cost reports
and incorrectly billed for ancillary medical supplies. We found that about 39 percent
of costs for ancillary medical supplies were misclassified and about 7 percent
of items billed as ancillary medical supplies were actually routine supplies.
We also noted that Sutter incorrectly classified $282,018 of supply accounts
resulting in excessive ancillary costs. Due to Sutter's election to change fiscal
intermediaries (FI) effective January 1, 1998, we issued a report to each FI.
This report was directed to Sutter's new FI. In it, we recommended that Sutter
review its procedures for classifying ancillary medical supplies and provide
training to its staff to ensure that accounts are properly classified.